Department of Homeland Security
   Ofﬁce of Inspector General

             American Samoa 2009 
 

            Earthquake and Tsunami: 
 

               After-Action Report 
 





OIG-11-03                                 October 2010
                                                            Office ofInspector General

                                                            u.s. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                       OCT 2 5 2010

                                            Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency
Management Agency's response to the 2009 earthquake and resultant tsunami in
American Samoa. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                         Matt Jadacki
                                         Assistant Inspector Gen ral
                                         Office of Emergency Management Oversight

                 -




                                 ...
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 
 


Background ..........................................................................................................................2 
 


Results of Review ................................................................................................................6 
 


     Improving Oversight of High-Risk Grantees .................................................................6 
 

     Recommendation .........................................................................................................10 
 

     Management Comments and OIG Analysis ................................................................11 
 


     Restoring Power to Disaster Survivors ........................................................................13 
 


     FEMA’s Permanent Housing Construction Pilot Program ..........................................17 
 

     Recommendations........................................................................................................23 
 

     Management Comments and OIG Analysis ................................................................24 
 



Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................26 
 

     Appendix B:           Management Comments to the Draft Report .......................................28 
 

     Appendix C:           The Territory of American Samoa.......................................................34 
 

     Appendix D:           Financial Data for American Samoa ....................................................35 
 

     Appendix E:           Major Contributors to this Report........................................................37 
 

     Appendix F:           Report Distribution ..............................................................................38 
 


Abbreviations
     ASPA                  American Samoa Power Authority

     CFR                   Code of Federal Regulations 

     DBAS                  Development Bank of American Samoa 

     DHS                   Department of Homeland Security 

     DOI                   Department of the Interior 

     EMOT                  Emergency Management Oversight Team 

     ESF                   Emergency Support Function 

     FAR                   Federal Acquisition Regulation 

     FBI                   Federal Bureau of Investigation 

     FEMA                  Federal Emergency Management Agency 

     GAO                   Government Accountability Office 

     HUD                   U.S. Department of Housing and Urban Development

     IA                    Individual Assistance             

     JFO                   Joint Field Office 

     OIG                   Office of Inspector General 

     OMB                   Office of Management and Budget 
 

     PaTH                  Partnership for Temporary Housing 
 

PA     Public Assistance
TAC    Technical Assistance Contract
TAO    Territorial Audit Office
TOHS   Territorial Office of Homeland Security
OIG
 
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                  In the wake of a devastating earthquake and tsunami in American
                  Samoa, we deployed an Emergency Management Oversight Team
                  to American Samoa in November 2009. The team’s objectives
                  were to: (1) promote accountability by instituting measures and
                  processes to evaluate the actions of federal emergency
                  management professionals; (2) serve as an independent entity for
                  oversight of response and recovery activities; and (3) review the
                  Federal Emergency Management Agency’s response to the disaster.

                  Through its authority under the Robert T. Stafford Disaster Relief
                  and Emergency Assistance Act (Public Law 100-707), the Federal
                  Emergency Management Agency provided disaster assistance to
                  American Samoa. This assistance included temporary housing,
                  grants for rebuilding efforts, construction of permanent housing,
                  and repairs to critical infrastructure such as schools and power
                  plants. Three issues came to the forefront during our oversight of
                  the response and recovery activities.

                  First, the American Samoa government has serious internal control
                  and financial accountability problems. Short of designating the
                  American Samoa government as a high-risk grantee, the Federal
                  Emergency Management Agency has taken a number of other
                  actions to help address these concerns.

                  Second, of particular concern are the federal funds provided for
                  restoration of the Satala Power Plant, which represents 75% of all
                  Public Assistance funding. High cost projects such as this one
                  should be closely monitored.

                  Third, the agency is building permanent homes for individuals to
                  replace homes destroyed by the tsunami. The need for better
                  planning, the high costs of the simple homes being built, and the
                  use of one large contractor to build all the homes raises questions
                  about this permanent housing construction pilot program and the
                  precedent it will set for future disasters.

                  We are making four recommendations to improve the efficacy of
                  the agency’s disaster assistance recovery activities.

            American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                        Page 1

Background
               On September 29, 2009, American Samoa was struck by an 8.3
               magnitude earthquake. The earthquake generated a tsunami with
               waves reaching 5.1 feet in Pago Pago, the territory’s capital,
               causing flooding in portions of the island. More than 30 people
               were killed and hundreds were injured. The combination of the
               earthquake, tsunami, and flooding resulted in a devastating amount
               of damage on the island of Tutuila. A local power plant was
               disabled, 241 homes were destroyed, 308 homes had major
               damage, another 2,750 dwellings reported some damage, one
               school was destroyed and four others sustained substantial damage.
               Most of the damage was caused by the tsunami rather than the
               earthquake.

               Figure 1. Map of American Samoa




               Source: Nations Online Project

               Within 24 hours of the earthquake and tsunami, the President
               issued a federal disaster declaration. The declaration authorized
               funds for Individual Assistance (IA), such as temporary housing;
               Public Assistance (PA), such as debris removal and emergency
               protective measures; Hazard Mitigation; and other forms of
               assistance. Two amendments were made to the original disaster
               declaration. These amendments provided for:


         American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                      Page 2
 
 

          •	 90% federal cost share for permanent repairs, and
          •	 100% federal cost share for debris removal and emergency
             protective measures for the first 30 days following the
             disaster.

      Figure 2. 	FEMA Disaster Recovery Center in Utulei,
                 American Samoa




      Source: DHS OIG

      Under the Robert T. Stafford Disaster Relief and Emergency
      Assistance Act (Public Law 100-707) (Stafford Act), FEMA can
      provide multiple forms of assistance to disaster affected areas. The
      PA grant program provides assistance to state, local, and tribal
      governments, as well as certain nonprofit organizations, so that
      communities can quickly respond to and recover from major
      disasters or emergencies. Grants may be used for debris removal;
      emergency protective measures; the repair, replacement, or
      restoration of publicly owned facilities such as utilities, schools,
      and hospitals damaged in the disaster; and road and bridge repair.
      The IA grant program provides assistance, including temporary
      housing or rental assistance, to individuals affected by a disaster or
      emergency. Mission assignments allow FEMA to engage other
      federal agencies to carry out specific tasks, such as debris removal
      and power restoration.


American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                            Page 3

      Figure 3. FEMA’s Disaster Funding in American Samoa




      Source: OIG analysis of FEMA’s disaster financial data, as of September 2010

      Since the disaster declaration more than 11 months ago, federal
      assistance to American Samoa, including FEMA’s operational
      expenses, has exceeded $125.5 million, and an additional $4.3
      million is planned for future distribution. As of September 21,
      2010:

          •	 More than $37.4 million in disaster assistance was granted
             for housing and disaster-related needs;
          •	 321 individuals received assistance grants of $30,300 each;
          •	 More than $102.8 million was requested for debris
             removal, emergency protective measures, and the repair or
             rebuilding of public buildings and other infrastructure;
          •	 Temporary housing and sheltering was provided to those
             whose homes were destroyed or left uninhabitable; and
          •	 Funds were allocated for the construction of approximately
             45 permanent homes.

      FEMA and its federal partners project that more than $18.6 million
      will be used to reduce or eliminate long-term hazard risk to the
      people and their property.

      Although the relief aid efforts were well received by the American
      Samoa people, FEMA faced a number of challenges in providing


American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                            Page 4

      assistance. Samoan culture has strong indigenous customs and
      traditions that revolve around the extended family (the aiga) and
      the communal land system. In Samoa, a matai (chief), controls the
      family’s communally owned land for the common good of all
      family members. Family members are expected to help the matai
      by providing the resources and financial contributions needed for
      special occasions and events, such as church building dedications,
      weddings and funerals. Ultimately, the matai decides who can live
      or build on the communally owned land as well as what type of
      resources and contributions are needed from family members.
      FEMA acknowledged this custom, and worked with the people to
      come to an agreement on the distribution and ownership of the
      homes to be built.

      American Samoa is an unincorporated part of the United States.
      At the time of the disaster, two tuna canneries accounted for about
      80% of employment. The prime source of income for American
      Samoa is the United States through multiple grants and other forms
      of funding. Of all the contributing agencies, the Department of
      Homeland Security is the second highest grantor. As of September
      30, 2008, total expenses for governmental activities amounted to
      $196,261,843, and of that $102,705,363 (52%) were funded
      through grants and contributions. The chart below shows the
      distribution of funding sources for American Samoa. Taxpayers
      accounted for 41% of funding, direct beneficiaries 5%, and grants
      and other contributions accounted for 54%.

      Figure 4. American Samoa Government Funding Sources




        Grants and                                                 Taxpayers
       Contributions                                                 41%
          54%



                                              Direct
                                            Beneficiaries
                                                5%


      Source: OIG analysis of American Samoa’s FY 2008 financial statements




American Samoa 2009 Earthquake and Tsunami: After-Action Report

                            Page 5
Results of Review
        In November 2009, we deployed an Emergency Management Oversight Team
        (EMOT) to assess federal recovery and response activities in American Samoa.
        We also assisted in coordinating information requests of federal and territory
        auditors, evaluators, and investigators. In addition, we informed FEMA and the
        American Samoa government of steps needed to ensure accountability and
        prevent fraud, and to monitor high-risk areas prone to fraud, waste, and abuse.
        We met with the Governor, American Samoa cabinet officials, FEMA personnel
        in American Samoa and Hawaii, and other federal officials in American Samoa.

        FEMA, despite the distance from the continental United States and limited
        commercial transportation, had an initial response team of 50 people, food, water,
        and commodities on the ground within 24 hours of the disaster declaration to
        provide the support and assistance needed by the survivors. FEMA provided a
        well-structured and well-disciplined Joint Field Office (JFO) for first responders
        and a Disaster Recovery Center for the people affected by the disaster. The
        Disaster Recovery Center alone had more than 21,000 visits. In addition, there
        was excellent communication among FEMA, the American Samoa government,
        disaster survivors, and media outlets, which reassured the survivors and kept the
        government up to date on response and recovery efforts. However, we identified
        three areas of concern relating to high-risk grantees, restoration of power, and
        permanent housing construction.

        Improving Oversight of High-Risk Grantees
                 In September 2010, FEMA anticipated providing more than $92 million in
                 federal disaster assistance grants to the American Samoa government for
                 infrastructure repairs and hazard mitigation. In comparison, the U.S.
                 Department of the Interior (DOI) annually provides the American Samoa
                 government with approximately $22.7 million in grant funds for the
                 operation of the local government, including the judiciary.1 Figure 5
                 shows the federal grant funds FEMA has provided to the American Samoa
                 government from October 1, 2006, to September 15, 2010.




1
 According to the DOI’s Office of Insular Affairs, the American Samoa government does not have
sufficient local revenues to fund the entire operating costs of its government.


                   American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                                Page 6

                  Figure 5. FEMA Grant Funding in American Samoa




                  Source: OIG Analysis of USAspending.gov data.

                  Independent public accountants and federal auditors have repeatedly
                  identified material weaknesses with the American Samoa government’s
                  ability to manage and account for federal funds. A material weakness is a
                  significant deficiency, or combination of significant deficiencies, that
                  significantly increase the likelihood that the internal controls will fail.2
                  Since 1997, the American Samoa government’s financial audits have
                  resulted in either a disclaimer of opinion or a qualified opinion. In
                  September 2005, the DOI OIG reported that the American Samoa
                  government had not controlled expenditures, produced timely and accurate
                  financial reports, or taken effective corrective actions on previously
                  identified deficiencies.3

                  In May 2007 we identified systemic deficiencies in the American Samoa
                  government’s grants management practices and controls and questioned
                  over $1.7 million in claimed grant costs. In February 2010, the American
                  Samoa Territorial Auditor told us that he had significant concerns about
                  the American Samoa government’s ability to effectively oversee the
                  increased amount of grant funds to be received given American Samoa’s

2
  Internal controls comprise the plans, methods, and procedures that an organization uses to meet missions, 
 

goals, and objectives, and in doing so (1) support performance-based management and (2) help prevent
 
 

fraud, waste, and abuse.
 

3
  American Samoa: Top Leadership Commitment Needed to Break the Cycle of Fiscal Crisis (P-IN-AMS-
0117-2003, September 2005).
 
 



                    American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                                   Page 7

                 internal control weaknesses, the absence of a fully integrated financial
                 system, and local funds’ liquidity issues that put pressure upon American
                 Samoa government officials to divert grant funds to pay bills for non-grant
                 purposes. In March 2010, the U.S. Government Accountability Office
                 (GAO) questioned the American Samoa government’s ability to manage
                 federal capital improvement grants, given that the American Samoa
                 government official responsible for administering such funds had been
                 absent from the island for the past 3 years.4 In July 2010, American
                 Samoa’s independent public accountants told us that the government’s
                 system controls are frequently circumvented and overridden since there is
                 no incentive to follow the rules.

                 Federal regulations stipulate that a grantee or subgrantee may be
                 considered high risk if the recipient:

                     •   Has a history of unsatisfactory performance;
                     •   Is not financially stable;
                     •   Has a management system that does not meet regulatory standards;
                     •   Has not conformed to terms and conditions of previous awards; or
                     •   Is otherwise not responsible.

                 The U.S. Department of Agriculture, U.S. Department of Education, U.S.
                 Department of Health and Human Services, DOI, and U.S. Department of
                 Transportation have designated American Samoa as a high-risk grantee.5
                 Because high-risk designations are made by individual agencies and this
                 information is not consolidated at the federal government level, each
                 grantor made the determination independently. Reasons identified for the
                 high-risk designation included delinquent audits, noncompliance with laws
                 and regulations, failure to resolve audit findings or to follow up on review
                 findings, incurring unallowable or questionable costs, and weak systems
                 for monitoring the programs and managing program data.

                 Grants awarded to high-risk recipients include special conditions or
                 restrictions that correspond to the high-risk condition. Examples of such
                 special conditions or restrictions include additional project monitoring;
                 payment on a reimbursement basis; requiring additional, more detailed
                 financial reports; establishing additional prior approvals; and requiring the
                 grantee or subgrantee to obtain technical or management assistance.
                 Corrective actions that must be taken and the time allowed for completing
                 these actions are provided in writing to the grantee. Once corrective


4
  U.S. INSULAR AREAS: Opportunities Exist to Improve Interior’s Grant Oversight and Reduce the
 
 

Potential for Mismanagement (GAO-10-347, March 2010). 
 

5
  U.S. INSULAR AREAS: Economic, Fiscal, and Financial Accountability Challenges (GAO-07-119, 
 

December 2006). 
 



                   American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                                Page 8

                 actions have been completed resolving the high-risk condition, the grantor
                 may remove the special conditions or restrictions.

                 According to the DOI, the American Samoa government was designated a
                 high-risk grantee in an effort to improve accountability for federal funds.
                 Such a designation requires American Samoa grantees to comply with
                 special conditions for future or existing grants. The DOI also indicated
                 that the high-risk designation would be removed once the American
                 Samoa government meets three conditions:

                   1.	    Completes two consecutive Office of Management and Budget
                          (OMB) Circular A-133 single audits by the statutory deadline,
                          resulting in unqualified opinions;

                   2.	    Has a balanced budget, as confirmed by independent auditors, for
                          the two consecutive years, without regard for nonrecurring
                          windfalls such as insurance settlements; and

                   3.	    Is in substantial compliance with its fiscal reform plan.

                 In lieu of formally designating the American Samoa government as a
                 high-risk grantee, FEMA has taken many positive steps to identify and
                 address the risks posed by the American Samoa government’s poor
                 internal controls. The responsibility for administering grants transitioned
                 from DHS Office of Grants and Training to FEMA in April 2007.6 At that
                 time, the FEMA Region 9 Administrator initiated a full review of DHS
                 grant programs provided to American Samoa. The outcome of this review
                 included FEMA regional staff providing American Samoa with technical
                 assistance and close monitoring. Additionally, FEMA limited the
                 American Samoa government’s access to all but a few grant funds and
                 implemented a restricted cash draw-down process.7 DHS restrictions
                 placed on grants began in December 2005, while DHS Grants & Training
                 still had oversight responsibilities. As of August 2010, FEMA has kept
                 these measures in place.

                 While the above FEMA actions are noteworthy, we remain concerned
                 about the lax accountability in American Samoa. For example, the

6
  Under the Post-Katrina Emergency Management Reform Act, the DHS Grants & Training was moved
into FEMA and renamed the Office of Grant Programs. This move gave FEMA the responsibility for
administering most DHS grant programs. The move was effective on April 1, 2007. Previously, DHS
Grants & Training had an agreement with the American Samoa Territorial Office of Homeland Security
(TOHS) to not designate them as a high-risk grantee given concern at the time (December 2005) that such a
designation might stall forward progression that was being made and perhaps be used as a leveraging tool
to alter the TOHS organizational structure.
7
  Under this process, American Samoa is to submit requests for expenditures related to specified grants to
FEMA for review and approval, prior to FEMA releasing any funds.


                   American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                                  Page 9

                 American Samoa government8 uses a stand-alone, customized system to
                 manage FEMA grant funds that is not fully integrated into the American
                 Samoa government financial accounting system and has not been
                 separately audited. Consequently, a significant increase in grant funds
                 may pose unforeseen challenges that FEMA’s “in lieu of high-risk”
                 approach may not effectively and efficiently address. By designating
                 American Samoa as a high-risk grantee in accordance with 44 Code of
                 Federal Regulations (CFR) 13.12, corrective actions that must be taken
                 and the time allowed for completing these actions are provided in writing
                 to the grantee.

                 If the results of the 2010 OMB Circular A-133 single and program audits
                 are disclaimed and include material qualifications, FEMA should consider
                 formally designating American Samoa as a high-risk grantee in
                 accordance with federal regulations given the history of unsatisfactory
                 performance; lack of financial stability; non-conformance to terms and
                 conditions of previous awards; and systemic internal control deficiencies.

                 Improving federal oversight and monitoring will improve the efficiency
                 and accountability of programs in American Samoa, to the benefit of most
                 American Samoans.


                 Recommendation
                          We recommend that the FEMA Regional Administrator, Region 9:

                          Recommendation #1: Continue to take all necessary actions to
                          ensure that the American Samoa government properly expends and
                          accounts for federal grant funding. Based on the results of the FY-
                          2010 Office of Management and Budget Circular A-133 audits and
                          according to federal regulations, these actions should include
                          consideration of whether to designate American Samoa as a high-
                          risk grantee.




8
  According to American Samoa’s independent public accountants, the Territorial Office of Fiscal Reform
and the American Samoa Disaster Recovery Office.


                   American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                Page 10
 
 

Management Comments and OIG Analysis
       FEMA concurred with this recommendation and agreed that they
       would continue to take all necessary actions to ensure that the
       American Samoan government properly expends and accounts for
       federal grant funding under FEMA’s administrative purview.

       FEMA, short of formally designating the American Samoa
       government as a high-risk grantee, has implemented a number of
       actions to help address concerns with the American Samoa
       government’s ability to properly expend and account for federal
       grant funds. In addition, American Samoa has worked with FEMA
       over the years to improve its internal controls. However, we
       remain concerned that FEMA’s “in lieu of high-risk” approach
       may not effectively and efficiently address the lax accountability in
       American Samoa given that:

         1.	   FEMA anticipates providing more than $92 million in
               federal disaster assistance grants to American Samoa for
               infrastructure repairs and hazard mitigation;

         2.	   The American Samoa government has a history of
               unsatisfactory performance in managing and accounting for
               federal grant funds, including those from FEMA;

         3.	   The American Samoa government is not financially stable;

         4.	   The American Samoa government uses a stand-alone,
               customized system to manage FEMA grant funds that is not
               fully integrated into the American Samoa government
               financial accounting system and has not been separately
               audited;

         5.	   The American Samoa government has not conformed to
               terms and conditions of previous awards according to the
               American Samoa Territorial Auditor, independent public
               accountants, federal auditors, and FEMA grant monitoring
               officials; and

         6.	   Local funds’ liquidity issues put pressure upon American
               Samoa government officials to divert grant funds to pay
               bills for non-grant purposes.

       If the results of the FY-2010 OMB Circular A-133 single and
       program audits are disclaimed and include material qualifications,


 American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                             Page 11

      FEMA should consider formally designating the American Samoa
      government as a high-risk grantee in accordance with federal
      regulations. Such a designation would require the American
      Samoa government to comply with special written conditions for
      future or existing grants and corrective actions that must be taken,
      including the time allowed for completing these actions.

      We consider this recommendation open and unresolved, pending
      review of corrective actions taken.




American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                            Page 12
 
 

Restoring Power to Disaster Survivors
     The Satala Power Plant is a 13,215-square-foot building located on the
     coastline in the village of Satala on the island of Tutuila. The plant
     provided electrical power generation to the American Samoa Power
     Authority (ASPA) system and was a primary source of power for the
     shipyard, the waterfront industrial area, and the power grid on the eastern
     end of the island. After the earthquake and tsunami, water entered the
     building through doors, sound attenuator panels, and cabling trenches.
     The initial set of waves reached 11 feet high and submerged the building
     and equipment in salt water. The second wave was about 4 to 5 feet high
     and had more energy, knocking down barrels of waste oil and sludge,
     causing significant contamination. In addition, the cooling equipment,
     sound baffles, generators, transformers, switchgear, and other equipment
     were damaged by the submergence in saltwater and contamination with
     oil. As a result of the damage, the power generation capacity was lost.

     Figure 6. Destroyed Generator at Satala Power Plant




     Source: DHS OIG




       American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                   Page 13
 
 

       The Satala Power Plant is capable of providing 29.5 megawatts of power,
       although only 23 megawatts were operational at the time of the disaster.
       In coordination with the U.S. Army Corps of Engineers, U.S. Department
       of Energy, and ASPA, FEMA assembled a power restoration team to
       assess damages at the Satala Power Plant and to develop a strategy to
       restore power in American Samoa. FEMA’s power restoration strategy
       consisted of three phases (referred to as tiers) that addressed short-, near-,
       and long-term power requirements.


                     Timeline for Restoration of Power

2009
 ¾ September 29:
    • Power plant is flooded, causing power outages on the island.
 ¾	 October 1–15:
    •	 Three-tier plan is developed.
    •	 FEMA gives ASPA 6 months to complete all emergency work; soon
       after, an additional 6-month extension is granted.
    •	 Initial inspection of the Satala Power Plant is conducted to assess the
       damage.
 ¾	 October 15–31:
    •	 56 emergency generators from FEMA and ASPA are put into
       operation (Tier I).
    •	 Additional inspections of the Satala Power Plant are conducted.
    •	 FEMA determines that the plant is not repairable.
    •	 Installation of 27 generators (Tier II) begins. These generators are
       rented from an outside vendor.
 ¾	 November 15–30:
    •	 Tier II generators are installed.
    •	 Planning for replacement of the Satala Power Plant (Tier III) begins.
2010
 ¾ February 15–28:
   •	 Tiers I and II have been fully implemented.
   •Tier III of this
     	 Planning    forproject involves
                       Tier III        the rebuilding of the Satala Power Plant.
                                is ongoing.


       After the disaster, FEMA estimated the total costs to replace the Satala
       Power Plant to be $52.2 million, to be funded through a PA Grant. The
       project was designated a “replacement project,” meaning the costs are not




        American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                    Page 14
 
 

                  capped9 and may ultimately exceed $52.2 million. FEMA is required to
                  reduce replacement costs by the amount of anticipated insurance
                  proceeds.10 ASPA anticipates $19 million in insurance proceeds from the
                  National Flood Insurance Program and a private insurance policy.
                  However, ASPA has requested that FEMA fund the full cost of the project
                  because it intends to use the insurance proceeds as collateral on a loan, to
                  be used for financing government operations. A lender has not been
                  found; therefore, at this time the status of the insurance proceeds is
                  uncertain. In addition to the replacement costs, FEMA is spending $7.6
                  million on temporary power generation (Tier II).11

                  Figure 7. FEMA Public Assistance Funding to American Samoa



                              Other
                              21%




                                                                             Power Restoration 
 

                                                                                  Project
 

                                                                                    79% 
 




                  Source: OIG analysis of FEMA disaster funding data

                  Due to the high dollar cost of this project, FEMA plans to continue to
                  closely and aggressively monitor all aspects of the Satala power plant
                  project. We agree with this decision. FEMA needs to document each step
                  of the restoration, and maintain a timeline with completion dates, to ensure
                  that tasks are completed in a timely manner. In addition, FEMA needs to
9
  44 CFR 206, Subpart G provides regulations for cost reimbursement under the PA program. A project
designated an “improved project” caps the total costs eligible for reimbursement by FEMA. A
“replacement project” is one in which the total costs eligible for reimbursement by FEMA are not capped.
10
   According to 44 CFR 206.250(c), “Actual and anticipated insurance recoveries shall be deducted from
otherwise eligible costs…”
11
   The $7.6 million cost is dependent upon the reconstruction project; if the plant is not rebuilt in the next
year or two, temporary power generation project costs could increase to more than $25 million, as
temporary generators are being rented. The primary funding source for these generators will continue to be
FEMA, on a cost reimbursable basis.


                    American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                                   Page 15

monitor management of funds to ensure that funds are being used as
designated. ASPA might not have its insurance proceeds available at the
time of construction, yet FEMA must adhere to the CFR so there is no
duplication of benefits. Close monitoring of the funds will increase
transparency, assure that the power plant is restored, and protect U.S.
taxpayers’ interests.




 American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                             Page 16
 
 

         FEMA’s Permanent Housing Construction Pilot Program
                  Within 10 days of the disaster, FEMA elected to use its authority under the
                  Stafford Act to commence a pilot program to build permanent housing in
                  American Samoa.12 The decision to build permanent housing was based
                  on the following conclusions:

                      •	 Insufficient available rental housing;
                      •	 Unfeasibility of transporting temporary housing, such as mobile
                         homes, thousands of miles by sea;
                      •	 Limited supply of labor and materials; and
                      •	 Impracticality of moving families off the island where American
                         Samoans have lived for generations.

                  At the time of the disaster, FEMA had no plans in place for building
                  permanent housing in insular areas such as American Samoa. FEMA chose
                  not to activate Emergency Support Function 14, Long-Term Community
                  Recovery (ESF #14)13 under the National Response Framework. FEMA
                  said that the U.S. Department of Housing and Urban Development (HUD)
                  had no presence on the island and that the disaster was too small to
                  activate this function. However, FEMA’s National Housing Strategy calls
                  for HUD’s leadership when permanent housing is needed. As the lead
                  agency, FEMA serves as the coordinator for ESF #14; HUD is one of the
                  primary ESF #14 agencies. FEMA’s Transition Binder (prepared for the
                  Presidential transition team in 2008) recommends increased use of ESF
                  #14.

                  FEMA decided to use its Individual Assistance–Technical Assistance
                  Contract14 (IA-TAC) contractors, the Partnership for Temporary
                  Housing15 to build the homes. This decision appears to have been made
                  before FEMA determined the availability of local resources as mandated
                  by the Stafford Act16 or publicized the proposed acquisition of services and
                  conducted market research as required by the Federal Acquisition

12
   According to Section 408 (c)(4) of the Stafford Act, the President may provide financial or direct
assistance to construct permanent housing in insular areas outside the continental United States and in
other locations in cases in which (1) no alternative housing resources are available, and (2) the types of
temporary housing assistance described in paragraph (1) are unavailable, unfeasible, or not cost effective.
13
   ESF #14 promotes successful long-term recovery for communities suffering significant damages.
14
   IA-TAC contractors support FEMA’s implementation of its IA programs. FEMA divided the country
into four regions, and each of the four IA-TAC contractors has the lead responsibility in one of the regions.
15
   The Partnership for Temporary Housing is a limited liability corporation consisting of DynCorp
International, LLC; Dewberry; and Parsons Corporation. It was the IA-TAC contractor responsible for the
region that includes American Samoa.
16
   Section 307(a) requires that preference be given to firms and individuals doing business primarily in the
area affected when federal funds are expended for debris removal, reconstruction, and other activities.


                    American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                   Page 17
 
 

                 Regulation (FAR).17 FEMA selected the Partnership for Temporary
                 Housing to build the homes in October 2009, but did not publicize the
                 acquisition or conduct market research until November 2009. According
                 to FEMA Housing Strategy white paper created on October 30, 2009,
                 when the permanent housing construction pilot is approved, “the intention
                 would be to implement the program by utilizing…the current IA-TAC,
                 PaTH for construction labor.” According to an October 31, 2009, email
                 among various FEMA officials involved in the housing project on
                 American Samoa: “The JFO [Joint Field Office] expects a Task Order for
                 permanent construction is imminent and will happen within the next two
                 weeks. [FEMA official’s name] is requesting that one or two PaTH staff
                 be deployed, as early as tomorrow, to start preparing for a housing
                 operation.” FEMA’s decision to use the Partnership for Temporary
                 Housing for the permanent housing pilot soon after the disaster was
                 confirmed by a knowledgeable FEMA official.

                 Figure 8. FEMA Home Under Construction in American Samoa




                 Source: American Samoa Department of Commerce




17
  FAR Part 5 requires publicizing of contract actions to increase competition, broaden industry
participation in meeting government requirements, and assist small business concerns in obtaining
contracts. FAR Part 10 requires agencies to conduct market research before soliciting offers.


                   American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                                 Page 18

                 Additionally, building permanent homes was not within the scope of the
                 FEMA/Partnership for Temporary Housing contract. Section 5.1 of the
                 contract, awarded on May 14, 2009, lists more than ten housing-related
                 tasks the contractor may undertake, none of which involve building
                 permanent private homes. FEMA modified the contract on December 28,
                 2009, to add “General Construction Services” terms and conditions.
                 However, the FAR requires that the normal acquisition processes be
                 followed if needed services are outside the scope of the existing contract.

                 FEMA rejected each of the nine companies that expressed interest in
                 building the needed homes in response to FEMA’s November 4, 2009,
                 Request for Information. Reasons for rejection included not being
                 licensed to do business in American Samoa, no experience in building on
                 American Samoa, and no experience in building private residences.
                 However, the Partnership for Temporary Housing, which did not respond
                 to this Request for Information, could not meet some of those same
                 requirements.

                 In FEMA’s November 4, 2009, Request for Information, interested parties
                 were to indicate their ability to build up to 150 homes. Although more
                 than 150 homes had been destroyed on the island, former homeowners
                 were given the option of receiving a cash payment or having a new home
                 built. As of November 20, 2009, only three American Samoans had
                 chosen the new home option. Ultimately, only 45 people opted to have
                 FEMA build them a home.

                 FEMA acknowledged that in its desire to help survivors, assumptions are
                 quickly made and acted upon, and then require revision as time passes. In
                 the past, these assumptions have resulted, for example, in travel trailers,
                 mobile homes, and modular homes being bought and not used,18
                 underutilized base camps being constructed,19 and unneeded mobile
                 medical units being leased,20 at a cost to the taxpayers of millions of
                 dollars. We understand FEMA’s desire to help disaster survivors as
                 quickly as possible, but this desire must be tempered by proper planning
                 and a concern for the costs involved.

                 In American Samoa, had FEMA looked at the ratio of Samoans choosing
                 to receive cash rather than request a home, FEMA may have realized that
                 many fewer than 150 homes needed to be built. Thus, it may have been
                 possible to build all the needed homes by using a combination of local
                 small businesses, volunteer organizations (who said they could build 20
                 homes) and foreign companies. Meeting the need in this manner may

18
   FEMA’s Sheltering and Transitional Housing Activities After Hurricane Katrina, OIG-08-93, Sept.2008.
 
 

19
   Improvements Needed in FEMA’s Disaster Contract Management, OIG-10-53, Feb. 2010.
 
 

20
   ibid 
 



                   American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                 Page 19
 
 

                  have provided FEMA with more valuable lessons learned for future
                  building in the territories than could be learned from the use of one large
                  American business.

                  Another reason given for rejecting bidders was the Buy American Act.21
                  The FAR creates exceptions to the Buy American Act, but the market
                  research team did not recognize or consider these exceptions.22
                  Additionally, the Buy American Act applies only to the purchase of
                  materials to be put to public use. Because the homes being built under the
                  pilot were for individual, private use, the Buy American Act appears to be
                  inapplicable, and thus foreign construction companies could have been
                  considered for the construction program. Interested foreign companies
                  from Australia and New Zealand, which were licensed builders on
                  American Samoa, may have been able to build the houses at a lower cost
                  to the taxpayer. The interested Australian company estimated the cost of
                  the homes at $250,000 and the New Zealand company at $240,000, far
                  below the high end of the estimated costs discussed below.

                  FEMA set a goal to complete the home construction on the 1-year
                  anniversary of the disaster, September 29, 2010. This date was not based
                  on any analysis of the time it would reasonably take to build the number of
                  homes needed. It may have been simply a symbolic choice, but it led
                  FEMA to eliminate companies and volunteer organizations that were
                  unable to meet the self-imposed deadline.

                  According to 2000 Census data, more than 80% of American Samoan
                  homes had zero to three bedrooms and more than 60% were valued at less
                  than $60,000. The homes to be built by FEMA were based on plans
                  developed by the Development Bank of American Samoa (DBAS). The
                  homes are basic two- and three-bedroom, one-bathroom block homes,
                  approximately 920 square feet for the two-bedroom and 1,262 square feet
                  for the three-bedroom homes. Historically, DBAS loaned applicants
                  approximately $40,000 to build two-bedroom homes and $60,000 to build
                  three-bedroom homes.23

                  The initial estimates provided to FEMA were three to four times higher
                  than the DBAS loan amounts. FEMA proceeded with the pilot, even as
                  unanticipated factors increased the costs. For example, archeological
                  monitoring was required at every site, and landfill had to be tested. The

21
   41 United States Code §10a-10d.
22
   FAR § 25.202
23
   A direct comparison between DBAS loan amounts and the actual costs to FEMA of building the homes
cannot be made because (1) the relationship between the loan amounts and the actual costs of building are
not known, (2) the homes to be constructed under FEMA’s purview are subject to more stringent building
standards and other federal laws, and (3) the loan amounts do not include site preparation and related costs.


                    American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                   Page 20
 
 

cost of rebuilding was in flux for months owing to unapproved design
plans and disagreements between FEMA’s IA-TAC personnel and the
U.S. Army Corps of Engineers over what should and should not be
included in the cost of home building. Because FEMA did not have
construction expertise, it negotiated an interagency agreement with the
U.S. Army Corps of Engineers to supply construction project management
services. If all services are utilized, this 9-month agreement will cost $3.7
million.

Figure 9. FEMA-Built Home in American Samoa




Source: FEMA

Under pressure to move forward, FEMA gave the Partnership for
Temporary Housing a “Notice To Proceed” in January 2010, which
authorized $3.9 million to build up to eight homes. FEMA intended to use
the actual costs incurred by the Partnership for Temporary Housing to
determine the true cost of the homes, determine the independent
government estimate of the building costs, and negotiate a firm fixed-price
task order with the Partnership for Temporary Housing for building the
remaining houses.

A ground-breaking ceremony was held on January 11, 2010. Construction
on the first home began in February. However, it is unclear how
construction could have begun without an approved design plan, since the
U.S. Army Corps of Engineers did not turn in the final design plans until
March 23, 2010. As months went by, FEMA continued to receive
estimates of costs and debate what should be included in the cost of the


 American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                             Page 21

                  pilot. FEMA received varying estimates of costs, ranging from $140,000
                  to $381,000. Several FEMA officials acknowledged that the cost to build
                  the homes was high − one official claimed to have had “sticker shock”
                  after realizing the costs involved − but believed that it was simply the cost
                  of doing business.

                  In addition, FEMA faced difficulties with site demolition and preparation.
                  The land that an American Samoa family lives on is not just land; they
                  have a “deep-rooted” connection and past with it. Traditionally, the
                  Samoan people bury their loved ones on the aiga property with elaborate
                  gravesites to signify a bond with the land and to remain close to the
                  family. As a result, during the site demolition and preparation process,
                  workers found remains of generations of family members. Additionally,
                  archeological artifacts were found that required removal and study.24 This
                  delayed the building process and increased costs.

                  Figure 10. Estimated Distribution of Costs per Home


                                                       Security, Material
                                                                                  Corps of Engineers
                                                      Overhead, and Other
                                                                                          14%
                                                                6%
                                                                                                        Contingency
                                                                                                            11%

                              Construction 

                                  33% 

                                                                                                                General &
                                                                                                              Administrative
                                                                                                                   4%


                                                                                                          Other Direct Costs
                                               Site Prep                                                          5%
                                                  7%                               Program Management
                                                                   Archeologist
                                                                                           Office
                                                                       3%
                                                                                            17%




                  Source: OIG analysis of FEMA data

                  According to the applicable federal regulation that implements Section
                  408 of the Stafford Act: “Permanent housing construction …must be
                  consistent with current minimal building codes and standards, where they
                  exist, or minimal acceptable construction industry standards in the area,
                  including reasonable hazard mitigation measures, and federal
                  environmental laws, and regulations. Dwellings will be of average
                  quality, size, and capacity, taking into account the needs of the


24
  Any activities that involve ground disturbance trigger a review for historic preservation consideration to
comply with numerous federal laws, such as the National Historic Preservation Act, the Resource
Conservation and Recovery Act, and the Archeological Resources Protection Act of 1979.


                    American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                                      Page 22

                 occupant.”25 The building specifications being used for construction of
                 the houses were improved to a higher standard than those customarily
                 used in American Samoa, in violation of this regulation.26 Additionally,
                 U.S. Army Corps of Engineers included commercial specifications in the
                 final residential building plans.

                 FEMA advised us in early September that a specific task order agreement
                 for the Partnership for Temporary Housing’s services for the permanent
                 housing construction pilot program in American Samoa had been reached.
                 Eight homes have been completed; 37 homeowners are still waiting for
                 their new homes, eleven months after the tsunami struck. FEMA is
                 preparing to obtain offers from other parties to build the remaining homes.


                 Recommendations
                          We recommend that the Federal Emergency Management Agency
                          Associate Administrator, Response and Recovery:

                          Recommendation #2: Conduct a comprehensive “lessons
                          learned” study of the permanent housing construction pilot
                          program in American Samoa no later than 90 days following
                          completion of the pilot and use that study as the basis for:

                              •	 Future policies regarding insular areas;
                              •	 The decision-making process for how and when to use
                                 permanent construction;
                              •	 The decision-making process for who should build the
                                 homes; and
                              •	 Determining the use of local resources and voluntary
                                 organizations.

                          Recommendation #3: Develop comprehensive, executable, and
                          regularly updated permanent housing plans for insular and other
                          areas for which the Federal Emergency Management Agency has
                          the authority to construct permanent housing under Section 408 of
                          the Stafford Act. Such plans should include the use of local and
                          volunteer resources to the maximum extent possible, consideration
                          of Emergency Support Function #14 in the development of these
                          plans, and approval by the cognizant state, territorial, or tribal
                          leaders.

25
 44 CFR 206.117(c)(3).
 
 

26
 The standard used was the 2006 International Residential Building Code/2006 International Building 
 

Code.
 
 



                   American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                                Page 23

       We recommend that the Federal Emergency Management Agency
       Chief Counsel:

       Recommendation #4: Determine whether the Buy American Act
       applies to the Federal Emergency Management Agency
       construction of permanent housing authorized by Section 408 of
       the Stafford Act, and work with the appropriate officials to
       incorporate such determination into relevant policies and
       procedures.


Management Comments and OIG Analysis
       FEMA concurs with Recommendation #2. This recommendation
       is unresolved and open until FEMA conducts a pilot study and the
       lessons learned are used to establish policies for permanent
       housing plans.

       FEMA concurs in part with Recommendation #3. FEMA does not
       concur with the requirement that permanent housing plans be
       approved by the applicable local government, because FEMA’s
       authority to build permanent housing is no longer limited
       geographically; thus, the “local government” may be at the
       State/Territorial level.” Our use of the phrase “local government”
       was meant to refer to the highest level of government, be it a state,
       territory or tribal area. We have revised the recommendation
       accordingly. Based on this revision, we consider the
       recommendation unresolved and open until such plans are
       established.

       FEMA’s Office of Chief Counsel determined that FEMA’s
       permanent housing program is subject to the Buy American Act,
       but pursuant to Recommendation #4 the FEMA Office of Chief
       Counsel will review the Act and make a determination of its
       bearing on FEMA’s authority to build permanent homes for private
       use. We will pursue this matter further with DHS Office of the
       General Counsel if FEMA’s Office of Chief Counsel determines
       that the Buy American Act applies to the building of homes for
       private use. This recommendation is unresolved and open,
       pending review of corrective actions taken.

       FEMA’s comment letter contained some comments not directly
       related to recommendations. FEMA officials deny selecting the
       Partnership for Temporary Housing to build permanent homes


 American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                             Page 24

      before the necessary acquisition steps were taken. We based our
      conclusion on pre-decisional documents, emails, and the testimony
      of a knowledgeable FEMA official involved in the process.
      FEMA officials in Region 9 provided us with final documentation
      and email which they assert refutes our conclusion.

      We have updated the number of homes completed and the status of
      the task order between FEMA and the Partnership for Temporary
      Housing.




American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                            Page 25
 
 

Appendix A
Purpose, Scope, and Methodology

                    As a result of Federal Disaster Declaration 1859, we deployed an
                    EMOT consisting of auditors and one investigator to American
                    Samoa from November 4 to 23, 2009. Our objectives were to (1)
                    promote accountability instituting measures and processes to
                    evaluate the actions of federal emergency professionals, (2) serve
                    as an independent entity for oversight of disaster response and
                    recovery activities, and (3) determine whether FEMA had
                    identified and taken steps to effectively mitigate the risk of fraud,
                    waste, and abuse or mismanagement of its assistance.

                    Relevant criteria included Robert T. Stafford Disaster Relief and
                    Emergency Assistance Act, Public Law 93-288, as amended; Code
                    of Federal Regulations; and FEMA disaster assistance policies.

                    We performed extensive document review and analysis of FEMA’s
                    deployment and JFO operation records, standard operating
                    procedures, directives and policies, budgetary information,
                    program data, e-mails, and statistical information. We reviewed
                    prior federal audit reports; Single Audit Act results maintained in
                    the Federal Audit Clearinghouse for the American Samoa
                    government, FYs 1997 through 2008; the American Samoa
                    government Single Audit Act reports, FYs 2007 through 2008; and
                    the American Samoa government audited financial statements, FYs
                    2007 and 2008.

                    We interviewed officials from FEMA Headquarters, FEMA
                    Region 9, FEMA Pacific Area Office, U.S. Department of the
                    Interior, U.S. Department of Justice/Federal Bureau of
                    Investigation (FBI) in Hawaii and in American Samoa, the
                    American Samoa Territorial Audit Office, and auditors from the
                    certified public accounting firm that performs the American Samoa
                    government’s single audits. We also met with more than 60 key
                    officials, including FEMA officials at the JFO and the American
                    Samoa Governor and his representatives.

                    During our deployment, we participated in FEMA and American
                    Samoa government joint situation meetings and visited the Disaster
                    Recovery Center and damaged areas (ASPA power plant in Satala,
                    Pago Pago bay area, villages of Leone, Nua/Seetaaga, Amanave,
                    and Poloa).

                    We conducted this review between November 2009 and June 2010
                    under the authority of the Inspector General Act of 1978, as



              American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                          Page 26

Appendix A
Purpose, Scope, and Methodology

                    amended, and according to the Quality Standards for Inspections
                    issued by the Council of the Inspectors General on Integrity and
                    Efficiency.




              American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                          Page 27
 
 

Appendix B
Management Comments to the Draft Report



                                                                                        1.'(,.   n.-,o_ot_s-...!
                                                                                        ........... 01: 1')('1




                                                                               8  ,..tIf!
                                                                                            i    FEMA
                                                        Sqlttmber 18, 20 I0

      ~IEMOR.A:'\DIJM        FOR,




      FRO":

      SUBJECT:                            FEMA R       I1SC 10 Revised Draft OHSlOIG               R~[}(ln   011 American
                                          Samoa (10--/16-£,110·1-'£,\£'1)

      On Jul~ 28, 2010. ~'our olr"", forwankd 10 FE~1A leadership .. dr:lft report lilkd: .'I_riean SDIIlOO
      1009 Enr/hquukt und Tsltnumi: .~".ActiOtf Rt'fKwt. fh:1t draft report cnntaincd Ih1: n:cummcndatiUllS
      for FE\1t\ \Q consider 1oI;lh t'I.'SfICC1. to its rcsponsihitiliCo' in pr'O"iding disaster a;:siSl3nl.~ w the disastcr
      SUl'vivoo M\d go\TTYlIDl'ntal ¥llCk~ in LIlt Territor) ofAmtricsn Samoa, FJ-.:\1A provi<k-d a written
      respollSC W this dr.tn. report. as "''tJl a.~ met with yourofficc 10 diSCUM uur tooctrns wilh eatain
      elem..:ms therooL On SeptC'mbcr 10, 2010, your onico: fUl'\\olUdtd a mcroor,mdum li{l~'d: Re"6't'd Draft
      Nt/IOr/: Am,'rk(!J/ Samuu 2009 EaJ'/hqualw and TSI/nami, After·Ac/ion Rt'(XJrI. That memorandum
      convcyw an altachmcm r~visinl! Reconmlcndalion I and supporting 13J1guaSt, l1ll:' lno:mnrandwn
      wnhcr inditllied thaI additional modifl('31mlo tho: original drafi report would bo: made, incillding ..
      rrtraclion ofRL'\.VIIllIl<:Ildation 2, Ba~ on thc L".:visions \Q the original drafl n..'POI1, FE.\oIA t'I.'Stinds liS
      original ",,'lillen re:>pLlIlse. and submi~ thls rt'\'Ued reply, FF.MA's fe' is:d r~ 10 C1ch ofthe four
      rcmauung!\:port rtCOntrncndalioM fullo~'$.

      (JIG flM-jsdl RtrolrlmcmJutlOn1!L

      ('wililll/e III /IIkt! all nt""~WI,'afliol1J /0 CII,lUr,' 111m Ih.. A/IIt!ricl/ll &mHiII glll'l:rnmfll/ jlIojl(!fly i'XP~IIJ~
      amI a"i1JlInU lor fi'deruf Il'oll/jimdins. &md /Ill         tw  n',rtllt.~ ()flh~ 20m OiJia u(,Hullag,'melll mrd
      RI/dgel Circuli" :I-I JJ ulIJiu wltl ill m:C'JrJilnCI: wi/II /fikml rrgulmiom', "W~t /lCriQflS shill.lll indl/M
      nmdJum;OII 011 ..'he1ht, ,Ilntr/<'WI .'1,IlIIOO ~ (orflwlfy ikfiRlfflled /1 lIigINi$! gramt'...




      ..u.tA concurs Yoith thi~ It\'lsed m:oo:m;:l1od~llOO.lUId WI: ..ill ('()lfriIlM to w.e $11 n...~' .etloo, ro
      m~ur... th:ll the AmmCl\l\ Samoan gOlcmmcnt propffi)' cX;:;;:nds and XC,I\lIlI~ f<)f fe,'k-raJ VdIll fimd:flg
      th:ll is ullJer FnH's ttdmill;5frolill! pun';""",

      \Vhi!e the narr.tlive accoll1jXlnying and supportinG the UKi r~omml,xL1tion pro\'ltk-s ~'Ol1Sidt'rablc
      detail on th... con«rll$ Td~t~-d to the- qUlllil)' of American samoa's finnndal accountability regarding
      FE-'1A·adlllmi.lo:r\:u g:'llIll funding. il dots ItOl do.-qUtl jl.lStil.-e 10 Ill.: history of aggressi\'t l\C1io,u and
      sigi'lificen! mhancernen;: clt'orts allderoktn b~ American SanlOl. ,'Ill! FL\1A RClll(lfl IX 10 ~;j~'ely
      adc!te.>s those Cl'IICeI't\S, DOl does il C'ljuibbl) ra.vgnize &~ nl.:llSUr.lble tmpt'o...cmC'D~ In qu:l!itari\c




                      American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                                   Page 28
 
 

Appendix B
Management Comments to the Draft Report




      occountabiJily th(1SC ctforB (C~crtl.'d by both American Samoo ~ FE~A) Iw\'~' proJUCL-d. We bdic\"c
      those. fam, effons aud achlev¢menL~ - detailed below - atc noteworthy, and dcscn'C adnowlcdgemcr,l.

         •   ,\lthough not officially dcslgnated ~high risk" by I>HS!FEMA, American Samoa has been-
             sirx:c l)e(:emher 2()fJ5 - de.~ignaled "in lieu of high risk"- As 1I n,:sull <.lfthis lancr desig.nalion.
             and for all inlentS and pUI'p('Sl:S. AmL'J"ican Sllmu3 has h.:en eflccti\d) opcr-Jling (ami
             imprQving! wilhin a "high risk'- accountability ~'11Vlronmem for nearly 5 years. ensuring SlriCl
             arid closely monitored accounwility for both disast~ and non-disastcr grant tUnding, and
             b.:lpinB to reStore tnc public lrust.

         •   Uy letler daled tktober 19. 2007, Governor Tutatimo nXluL~lcd tlull fE~Ii\ l\.'Store funding for
             American Samoa f'ublic AssisWllce and I tlli'..ard Mili~tion GUlIlt Programs for open disasters.
             In response_ Ih" rEM.t\ Regional AdminiSlr.,l1or initi:MJ and wmpl..ted - m conjunction with the
             FEMA IkadqU3rteTS Natiotml Prcparedness Dinxloratc and Grant ?rograms Direetorate - a full
             :md eomprchcnsive review ofFEMA gratn programs pmvidcd 10 Am~riean $amoa, including
             direct on-site assessments. In h:broary 2008. FEM," convent'll a hi~-Ic"cIlVorking group
             (c()nlprised of Region IX leadership and slaff and key FE\M hc.'ldquancrs ollicials. 10 include
             representati"..s from the Pmgnun Devdopmem and Administration and Financial O\'ersight and
             Accoullwbility offices und.... tnc (ir-,mt I'rngruntS Dirt\:lorale) to review progmm l'I.'quircmcnts
             and. most imponantly. develop 8 rigorous Wrre<:tive ltction pl,m to authoritalively guide
             !\mcrican Samoa's gram eligihility re:.10ralion dfoltS. The working group also cstablish~·
             II/ifiting high ri.d. rl'qllirt'menli' - demanding critcria for the release of sjl'.:cilicd grant fimds. 10
             include a rt'Str;cted dr~w-do\\'n process that r""'llires s.ubSlantial jusliiicalion and a [.;udully
             moniiored documentation approval process to ,mabie thc distribLllion offunds. By working
             c1oS('ly and collabordll\"dy \\;th Amenean Samoa offiCIal>: lIy acti"..I}" promoting rigorolL~
             accountability: lIy instiluting meaSUrL"S lUId pr~~~s 10 CllSun: dose lUId L'OlItinuL'd oH'rsiglll:
             and by requiring detailed and dcmullding correclive actions, [:r~\1A took .md sustained
             aggressil't and fllnili!menwlly >ound SIl"PS to help American SJlmoa down lhe path towards
             financial al.:counl1lbililY and. cl"cmually. grant cligibilily restoration.

         •   Crucial to lhe m<,asur~'d and validated improvcm~n1 in pcrtonnancc of American SilIlloa was the
             COOl"''T31ive de\-t'!upmenl of U corret:li\'1.: aclion plan to authoritativety "ddress identified
             deticiellde.~. In Deeemoor ~OO8. Region IX S!.'nt a !<oller 10 G>lt"elllOr T ulalililo n:garding the
             st.:'llllS of the Inspector (jent'ra! 3udillindings (OIG-4i-02) ior Homeland Sccwily grJnts for
             Iiscal yeaN 2002, 2003 and 2004_ and n:qUCSlOO thaI a corru.:tive action plWl be submiHt:d til
             oodless the audil lkdmgs. The Idler also requtst<,d information or documentation 011 corn:clive
             xtlons ~ltm American Samva implemented to address the lIOll-compliance issucs tdemilicd in
             the Ir,spt'clor G{"llcra! report_ The: leUer stipulaled tl\ll' approval orille eotl"Cctive action pilln \\'!IS
             a fUl:lOr in:my Jc:t<'rminatioll to rdcas.: funds. and th,tl oul.o;t.andinl! issues mllSt be If,atis(adiJrily
             addre.ss<.'<! before FBI." would nllow American Samoa to b;: placed on rcstncted "ash draw-
             dowlI starns for Ii\'<: spt'(,ified prep.1n:dn,-ss grows, E~'cn lhen. fEM." wl1lruls rcmain('(llighl.
             as the restricted ca~h draw.uuwn process re<]uires Anleriean SltlIlOO. to sllbmit requt'Sls for
             .,;pcnditUf\:s rdU\L"d to specified granl.'; to fE\1.,\ for revicv. and llpprovuL pri,,)r to FEMA
             rekasittg any f;,;nds.




                    American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                               Page 29
 
 

Appendix B
Management Comments to the Draft Report




        •   The ln~p',;l.'.tor GCIll.'rIl1311dit (OIG--I7-iJ2) iJcmilil'd sevcrnl audit lindin~s nnd recomnlCndntions
            ri:'quirinp; corm:lil'e l\I;tjon. Accordingly, FEMA directed Americ:.ul Samoa to pro\"ide a
            corrective aCllon plan to ;)'ulhoril;l.ti\'cly rem.:djal.:> thl:: thr~ recommendations ofthe report
            Specifically. Anll.'l'ican S3moa "as require.:! to (I) provide sUPP'ming d(>\,'Uffilmtation within-l5
            days p~inillQ to the qucSlion~ CO>.""tS identilied in th... lirst m.:olllmcndaulollt; (2) prOVide
            sup['Orting d,}Cum<:mation for cdl poorlCs. priming ~'(Ists and gasoline charges ldcntified in a
            S<'c.lnd re~'Ollltll<,ndallon; ,md (3) Allleric.an Samo.:l was required to r.::pay funds for disallowed
            pUl\;har.t:S identified in a r.-comrncnd3tion, American S:unoa suhmitled thdr cOfTCnivc action
            plan and supplemc!lrol intormation in Fehruary 2009, <.\1\ time, and as f("qucStcd. FE1'>lA 1lO1C'd
            thal Americ:.ul S,unoa SI111J'wlll' \l'l) c<)(lperat;I'<" aIld moronsi\'e 10 inquiries alld rC\juests r'lr
            supplememal documenwliun during \he com:ctivc action plan r.::vicw process.

        • FEMA conducted an on-site programmatic and financial review in :'-·hy 2009 to asse;..~ the
            corrective aetion.i impkmenl.\,'d by AmC'rican Samoa 10 address non-complinncc i>sues idetltifil~1
            b)' thc Insp<;etor G('tlCfal, and to ~nsure that policies aOO procedures wc!\: in place In proper1r
            account for reccipl wd cxpo.:nditure of IJIIS alld FEMA preparedness, mitigation and disaster
            funds. The: results orthc review determined that Amcrican Samoo would be placed in restricted
            cash df~w,liown SWtllS once the funds lor audit diSfllto\\'ances were returned, The funding
            frd:zc W"ilS lined for mitigation and disaster programs, as well as the specified prcp3fcdness.
            grant programs. lIowe\'er, in funhernnl'e [lITEMA's f);5ponstbility to ensure littlll1cial
            oversight. American Samoa \:ominul.'S lU ht: on a restricled cash drJw-down statllS. H:MA
            l\:glOlllll s\flIT continue to closcly monitor (oolh pmgnunmatieal1y and financially) American
            Samoa progmms. eotlljllue to pm\'jde te.:hnical as.iislancl:, and continue to conduct
            admini~trJlh'c compliance n:l'iews in an ongoing etroM to SlJ.'>uin suund lllhninbtrJIl\'c pmcticcs
            and financial occoomability, >iultiple Visits during the past year ha\'c facilitated tIltd atflrmcd
            American SlIIlIU~ acl;ountability improvements. and this high k\"d of Sl.-'l"llliny willl;ominue.

        •   At thc timl.' ufthc Scpt~lIlber 2009 diSflster e\'ent, th~ FEMA Rcgiun IX Regional Administrator
            had restricted access by Aml.'J'ican Samoa to all bot a reI'.' gram fUndi. pt'ndil1l! t1~ final OUtl;OJnl;
            ofongoing in\,l;stigaliol1s and the implementation of a eompr.:h.:n,i\"~ and figorous COm:Clivc
            aetiOll plan 10 l'llSUn: the intcgrity of these progroms. I [owc\,er. lllWtJIoil!uolIs humanitmian
            cut1Sidcrn\ions demllnded that FEMA not dcny critical di>a.'>ler a.<;;<;islllll<::t' to othef\\;se cHl;iblc
            American Samoan residents al1ected b~' the disastcr; accordingly. FEMI\ appropriately
            authoriLed Individual and HousdlOlds Program funding 10 11c pmvid~d 10 tligible UWI\;<.!uals
            and flUllllics. FE:vtA also assllrcd officials of American Samua thatthc d.:cision to suspend
            funding for ot1\\.'r "EM A gran\.'l would n0t affecl the Federal resJXlllSC to" PrcsidemiJl disasler
            declaration,

            RL'£.ardlcss of the !"onnal d('Sigimtion of All~rican Samoa«~ "high risk"'~' othcr j(xkral
            agencil;s, lhe regulatory pnx:cs.> allol\'s lor each awnrding ogency to sep;lrJtcl,. and
            ioocpendently ddermlllC the need to ~<)lJS1der a grantee til' sub-gnml~ ·'high risk,"' l>ased on the
            fiw criteria sp.,."ified m 44 ('FR, Sc.:tiol113 )2. The awarding agency applies U'.e criteria in the
            context ofthe l;\lITem ronditious ilnd eapaNlities. for managing ~pc{'!fir /(fWll uwardJ. While

                                                            )




                   American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                             Page 30
 
 

Appendix B
Management Comments to the Draft Report




                 FEt\tl\ is l.'QgniZllllt of other agcnty high-risk designations. FEMA has separalely lUld
                 inderendcntly d<:l~'nnln~d lhal its tl.lfrent policy and nlClhodolog} fdr ,\m('riClln Samoo -o.t II
                 IJ(!piiu IIII}wSl! grum S)"Stt:fflS IIrat suppllr' I·EM" pmgnl/llS - is dle.:!i~·". and Ihat OIlier agency
                 ··hig.h risk" delerminations apply to srsl~mic conditions Ihm :Ire nOl rdC\'llnl to FEMA'g !lr:ml
                 progrnms.

      QK; Ijrco/llmwiqllol1 1>1:

      COnd"CI II compr/:'hclISll't! ··Ie.~.<on~ 1/:,(Jr1/l:'d" SIUd) oj tilt· JJerll/III1"/1/ !lmbitlr. ct)II)',rllctiQt! pilOl
      pragram in :lmrrlcan .1111I1100 no falt'r lhun 90 d<l}'S followi"g completion afthe pilQ/ ami u.~ l/wl $/udy
      iZS   ,hI:' bosisfvr'

                 • FlllllTe poIiri!:'.J regwding In.w/ar Qrt(U:
                 • 'TN Ikdfinft.nlUting prtKl!$J}i>r 110... and ...hell/o uu ~rmltnefllCOMlrut'lion:
                 • 1M fll:'rislon-mlIking JIf"tlaM ftIr '<rho Mfuufd bw/d ,k hv~, and
                 0I)tt_mil/8'hI:',," oflocu/ rntJlllrtS und 1'Oi~tUQr)' orylon!:asiotls.



      FE:..tA agrees \\ith 1M premise ofUus rte()ntJnmlbtion Ilnd funy int<:nds U) wndurt:a -kssons 1..:::JmOO-
      assessmtnt Repl'l::I<lIlatl\\.'S from FBIA H~UllnefS h:a\'e :already sp.:ru lime in ,'\meric:ul Sllmoa
      gatherinlll0:ss0ns-kumed ~l.h,::d 10 litis Msnsnl~lt. T~ kamcd lessons \'oill ulumatdy mlonn.nd
      support chan~ts 10 pulicits and proccdUl'CS. 110.....e\·er. lhere m: II. nwnlxr of an<:Htl:l1ies or disc~pall\:"ies
      in the rc:port. \'ohich w~ address below.

            •    ~.          Conct:Jtlllll! th..: 3\:lcetion of PartnefShip for ·l ..mpnr.lry Housing (P.". TH): The report
                 sLll.... Uutt FEMA Sl."kClcd PATillO lluild 1M homes in C'k;lo'tll;r. bIll it did 1\01 COndllct lhe
                 markel re~areh until Nowmbcr 200lJ. 'j his is il\;!CCUr.tt.., The deeision 10 Ulilizc PATII was
                 millie l!&;r lho.: cnmpunks provided their respons.cs I,) Inc Kl.'t.ll~sl for Infonnnlion lind ~'arkct
                 K.:seW'Ch Revi....... all.! ArlIllYSIS.

            •    ~; COl1t"<I1Iing ~          rolt of tho: U.S.   l~partlllellt   of l10using and Urban [k\dopmenl
                 lHl!D):     HLJ) dlle's r.Ol ha\t: a presence in American SanlO3- It.< fk"dormt'llL Bank of
                              SUlC~'
                 A/l)(rican ~ (nlM,)) serves as their rcp~selUlIti\'c for adminu;!Cring HUD 101l1U. The loan
                 pm&r,\lll    ultliz.-s the DBAS plans. DRAS WliS lIl.1i\cly m~,-J         In   the Hoo:'II1" T&1: Force.

            •   ~:       Cor.c<l1ling lbe u.;c oflocal housing contl'llCton:. Foilovoi.'I£ lJk l.'3rthtiualc:wid
                 lSi.IR:lfIIi·~I;lIcd
                                  destruction. FEMA performed :m           :mal,>is uf t.'le Iong'lam housing IlCC'd and
                XtClmilW..,J!h.fI pcrmaneuly con.<tru.."11lll> homes fOl'" digibk disaster Slto-ivors would best meet
                !he houting~. FE.\fA performed I \1arkCl Resnrch Rc\'ieoo. and Anll!YSb aod req","~
                l~ (OOlnoo.:iOl: information and ~ 10 budd an Vo:JlCl"ted IlXal of ISO bomc:s. Multlpk
                ro:::p;mi~ ItipoJnJo.:d. btll tlJe)' did r>(Il mcel: tilt cnlcna to SCl'H b pnmc con\Jlllt.."1Of for \'lInIl\L';




                         American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                                    Page 31
 
 

Appendix B
Management Comments to the Draft Report




               reasons. such s:s the companies did not h.:l\'e a l.1rf;e enough labor foree 10 m~"\,'t tbe need of the
              tonlmCt Of !h~' did IIOl  possess lhe finlll'.ci:d feli<lllfte!> 10 CO\'(1' lhe COSI of n13h:rials ,uld 1o\11gC1,

              ~: Concerning the sdCClion or Pi\TIl: To help e):!lCdite              the rehuildiog process. FEMi\
              lookeJ ttl Pi\ TH, liS 1~'Chmcal a~mlafl(;c contraclor, Technical     assistanCC conlI1\ClS a~ in place
              10 CJlS<Jr~ lh31 r~urces are available and slDuding by TO complete a disnsler Bollsin!> mis~i()n.
              aud are ""warded 10 vendors ,m a n:gionld basis Io\;th funding dt!;igl'laled for vClldors 10 mainlain
              readin~'Ss 10 IlSsisl in \'llrious huw;ing mls.~iollS. At the lime oflbe disaster. Region IX Imd a
              l~hnknl assistanee contrm.1 in place \\;!h PA rHo


          •   ~:          Concerning lh<: sda;li,m of PATI! Once the Marl:et Rcscan:h 1«:vK:w and Analysis
              resulls dttmnined lhat 00 b:al firms were a ,'iahk nptinn, PA111 was Sdc..:l(,..,j as the prime
              cootnlC\Ol' for the ~n,g project for lbe initi31 eiilll ~ (bJle: a 100II "endor is e.~ptCltd to
              be 31o\lIl'ded !he Phase 2 comr:tet to build the fI.-mainin; approximately 30 homes under tht pilOl
              program). PATH has prevIOUS oonsltUction experi~ building rcsid.:ntUI houWlg. including
              militat) housing. in 11a......ii.. MWourl. Idaho     wNonh Carolina. P,>\T111til'S prmen 10 !».\c
              lIl:CCS$ 10 rmancia:ll\.~ for projcm which rtquire funds in ach'3llcc and tIllS performed
              suc:c&::ssfull~ on FE..\tA rontrxts since 2006, Although P.\ ru \\'3.S designaled as lhe prime
              contractor. it IS oo!C'.'o·onh) 1M a numba'of American Samoa·b:Jscd linns ....eu ~1C'Cled lIS sub-
              contrllt1ors for the project

          •   ~: ('-Onecming lhc US<: of volunteer Ofl!anir.:IlIQf'l: The ro:pon implic$ that FEMA did I'ICll:
              me an cITon to utiliu mlunl~ orpnilllliuns. On III kJ.Sl four separnle occasions. FE.\otA
              lead<.'fthip consullCd ....;lh Menl)unile Ilisas:cr Srn'ices......ho was repr<smting the o~r
              \'oluntccr orl:amil:lluuns. 10 discus.' lheir ability Tl'l Ctlnstrucl homes_ In every ca.~. they wt1'C IlO\
              able 10 build lh~ nwnb.:r urhomes required hy the PCnnantnl Hou.'ling CO!1SInIClion program,
              Infi1cad. they provided assistan~'lollu lOOse homes th:ll could be l\.'PllII\.'t!. ThiS acllOlI freed up the
              limited pool of wor\.:~'n; 10 focus on recon~lnlClion, FE..\ lI\ has SJ)l;:nl o\'t~r S260.000 In
              invilllliunallr.lvcl and supply requirements for O\'cr 120 individuals providing \'oluntnry
              S\:rvici:1l.

          •   _~lI&ill:
                      Concerning the num~r ofhul11<.':'l ~'()mplctcd: All cililit homl:s memioned in 1M ft(l(lM
              were wmpletcd b) I\ugusl 9, 2010. '1'11(' \it~ prepa:allOO ",ur\.: fOllen addiliiOlUlI ~itC>lIS al$O
              completc.

      (IlG RrCtI1llJ',..lnJoIWlI if):

      lJ,.>q>lop .'OIJlfJ'thtnJlI't. I:Xt<.1dQiJk (m1 rrguiarl)' upr.IuNd ~'tI!{IIWI" /lQ1JS;ngplomfcJ' ;lI$u!UI' and
      OIMr tiI'l'ilJ..fa, I4hfrh t'" Fr.kra! f.mergclICv MCII'Ogl'fll<'n! A]!e'lf) hos tN o",hority IfJ COflJlTlIi't
      fXmIORl'tT'   houiJrg 1I11(kr Sn:'Wn.J~ o/lh.t SloffanJ ..fa Such plom should indlltk tit.: usc oflocul
      UIII1 wI;ut{e~ ft.WUTO!:J lO,ht- "..mi1lW1JI wen! pomblt conshk'iJtWll of&lc-r1l.mt) ."1IIJPl" fiulcrkM
      #! / In 1M dr,":opmmI o/that piCM. and apJTGWII b) IN fiX4/ go...nr~t..ru o(/~Sf p/.t.w {indtalitlfl
      itJ irIIIaifl8lJwhurity !(UIl))


                                                                  ,


                      American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                                  Page 32
 
 

Appendix B
Management Comments to the Draft Report




      FE..\1A tontun; with lhe dc.~irabilily and need for Sl;alabk, lIc-:iblc, eXtCU1;lbli: (l<:nTl3n~'1'I1 housing
      plans. as well as ",hh the recommendation tllm s~th plolls illcludc the particiJXllion ofESH14 and
      maxmliL~ the use of local and ~oluntccr lC:;OUl\:eS, However. FE;'.L'\ dOl:S not concur thal. it IS ellher
      applOprial~ or l\,;.liSlit to ll.-Xluir~ luc,I! gowrmn.:nt approval I!,! slilllding FEMA-dc\'l;lopcd plans. The
      OIG Tl:commcndalion indicates llut such plaM should N developed lor ...., imll/lir and oth,'r arMs for
      which Irn' FtdtfiJ/ [mergellq MUflagenwlU Agcncy has the amhorit)' to COllSrruct pernll/1/CllllJou5ing
      lIIuJ~r &dion 408 oflhe SwfJ<)rd Act, " h shot,h1 be llokd that $.."";li"n 408 illlpo~ no gcogrdpllJl;
      limits on the President's authority to providc penTIanCnl housin,g, !\ccordin~y. pcrroaTI.:-nt construction
      may be authorized in any area that Olherwise meets the criteria establi~hed in Section 408(c)(4),
      Aceoroingly, the appropriale and r~'lIliSlic coordination antlupproval h:vcllor FEM!\ would Ix: (tllhe
      StaleIT~rrilOry lel'el, not allhe indi\idnallocal gOI..:rnmem leveL


      The nalTlnive accompanying this recommendation Slales thm "FEJL1. chose nollO OCll1'(lIe Etm'fg('nC}'
      Support Function /4, Long-Term Communily Ri'cmt'ry (£SF:; 14j l/flikr IIU! ,\'arionof Responsl'
      Fmlnt'll'ork, " The I\:pon fails 10 r~l1ed lhat Ihl' GOVL'T1I[)f of Am~:nc(lJl Samoa ~pcc\licall~ staled he did
      not want \0 activate ESF 14. nor does the tepol1 acknowledge that it woLlld be ~ntirely ill3ppropriaLe for
      FEMA to rcquir~ a sUP)XJl1ctJ T~-rritory 10 accept a form of f~-den11 a,SisllUteC that it bas dearly dcdin~'d,

      OfG Rf/cmnnIenOOlian     ~4:


      Dl,'lermine l{Ihe Buy Am,'rimn A,'I flflPlil'~- IU 11/1.' Federal Emagmq MIIIUlgmll'nI Agrnq ,'om'lfII,'I;U/!
      oJixrnumenl hOI/J-ing Il1IlhuJ'b:d by SCCliolt -108 oflh" Sra.fJQrd .. let lind It'Qfk It'ilh IiiI' appropriate
      l1Jicials fO inClJrpOrlll1' .wcll delaminali,m in/a rcfl'l'on/ policies lind procet/llfCS,

      FEMA    I{e,ron~:


      FP-IA and its Oificc ot'Chi"fCounsd (OCC) do not agree with the as$l.'nion thaI the Buy /\m"rican
      Act (Bf\A) is IlQt applicable to seclion W8. pcmlancm housrng conSlruction. The permancllt
      conslruction orhou~ing under the' SI:lfTonl ,\.,.t app,:,lfS 10 1~t.l1 "'ithin the.: BAA ddinitioll for public usc,
      panicularly since FEMA is conltaetinf! for thl' "'erk dircctly. Ho\\"cvcr, ~r the recommendation. oce
      will det~nlline whether lhc BAA applies to stetion 4U~ projects and work with I'EMA Otl1ce of
      Aequj.ilious 10 ~n~un: lhl' BAA is prup..:rly &pplkd 10 rUlUrC prot.'\lrClll~nt aClion.,


      cc:     David   K.~ufman.   Dil\."Clor. OPPA




                                                               6




                      American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                                               Page 33
 
 

Appendix C
The Territory of American Samoa

                    American Samoa (AS) is an unincorporated part of the United
                    States, located in the South Pacific Ocean about halfway between
                    Hawaii and New Zealand. As a territory, American Samoa is
                    administered by the Office of Insular Affairs, U.S. Department of
                    the Interior. Each of the islands became a territory of the United
                    States on April 17, 1900, when the Deed of Cession was signed.
                    Prior to that date, Germany and the United States shared ownership
                    of the islands; Germany owned the western part of the territory and
                    the United States owned the eastern part. The five volcanic islands
                    have rugged peaks and limited coastal plains with a hot and humid
                    climate. Because of the rough terrain, very limited amounts of
                    land can be inhabited. Together, the islands are about 199 square
                    miles in area and the population is 65,628. Most of the population
                    is of Samoan ancestry. As of 2005, 29.8% of American Samoa
                    was unemployed. Their social basis is the land and 90% of the
                    land is communally owned by families that are led by chiefs called
                    matais. Religion is also very predominant in the American Samoa
                    culture and much of the village life centers around the church. The
                    American Samoa government structure is very similar to that of the
                    United States, in that there is an executive, legislative, and judicial
                    branch. The executive branch is led by the Governor and
                    Lieutenant Governor. The legislative branch consists of the House
                    of Representatives, which is elected by popular vote, and the
                    Senate, whose members are selected by the matais. The judicial
                    branch is a part of the U.S. judicial system. Agricultural products
                    of American Samoa include oranges, limes, mangoes, alligator
                    pears, yams, pineapples, papayas, breadfruit, and dairy products.




              American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                          Page 34
 
 

Appendix D
Financial Data for American Samoa

Chart 1. Federal Grants Funding

                                                            Other Federal          Total Federal
       Fiscal Year                 FEMA
                                                              Agencies                Grants
           2007                      $ 2,724,758               $ 94,983,585           $ 97,708,343
           2008                        3,807,605                125,497,726            129,305,331
           2009                        (794,612)                121,342,469            120,547,857
              Subtotal               $ 5,737,751               $341,823,780           $347,561,531
          201027                      35,748,614                206,520,502            242,269,116
                 Total               $41,486,365               $548,344,282           $589,830,647


Chart 2. Disaster 1859 Public Assistance Funding, by Work Category

                                                       Total Category
 Public Assistance Work Categories                       Amounts
A – Debris Removal                                             $ 990,831
B – Emergency Protective Measures                               39,512,040
C – Roads and Bridges                                              565,991
D – Water Control Facilities                                       702,664
E – Buildings and Equipment                                     10,756,832
F – Utilities                                                   55,350,507
G – Parks, Recreation, and Other                                 3,171,551
Z – State Management                                               663,759
                             Rounding                                    1
Total                                                        $ 111,714,176
Source: FEMA Public Assistance Summary dated September 21, 2010

This chart represents total requested funds for all public assistance projects. Project costs
are not reduced to reflect possible federal cost share provisions.




27
     As of September 24, 2010.



                     American Samoa 2009 Earthquake and Tsunami: After-Action Report 


                                                 Page 35

Appendix D
Financial Data for American Samoa


Chart 3. Public Assistance Projects Obligated

American Samoa Applicant                                           Project Total
American Samoa Community College                                   $       1,702
American Samoa Environmental Protection Agency                            24,384
American Samoa Power Authority                                        12,606,088
American Samoa Telecommunications Authority                              358,135
ASG - Territorial Office Of Financial Reform                             597,383
Department of Administrative Services                                     21,385
Department of Agriculture                                                 47,779
Department of Education                                                   89,237
Department of Health                                                      68,741
Department of Human And Social Services                                    7,237
Department of Human Resources                                              7,067
Department of Marine And Wildlife Resources                              542,859
Department of Parks And Recreation                                       294,414
Department of Port Administration                                        880,312
Department of Public Safety                                              156,519
Department of Public Works                                               369,376
Dept of Legal Affairs/Territorial Registrar Office                         4,043
Development Bank of American Samoa                                       110,220
High Court of American Samoa                                              50,574
LBJ Tropical Medical Center                                                9,120
Legislature Of American Samoa                                            114,860
Museum Of American Samoa - Jean P. Haydon Facility                        33,170
Office Of Procurement                                                    283,775
Territorial Administration On Aging                                      163,661
Territorial Office Of Homeland Security                                  179,845
Total                                                               $ 17,021,886
Source: FEMA as of September 2010. 
 


This chart displays the PA projects that have been obligated. 
 





                American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                            Page 36
 
 

Appendix E
Major Contributors to this Report

                     Don Bumgardner, Division Director
                     Trudi Powell, Supervisory Auditor
                     Arona Maiava, Senior Auditor
                     Vince Roth, Assistant Special Agent in Charge
                     Polin Cohanne, Senior Program Analyst
                     John Woo, Senior Auditor
                     Puja Patel, Program Analyst




               American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                           Page 37
 
 

Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      FEMA Administrator
                      FEMA Deputy Administrator
                      FEMA Regional Administrator, Region IX
                      FEMA Audit Liaison
                      Director of Local Affairs, Office of Intergovernmental Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




               American Samoa 2009 Earthquake and Tsunami: After-Action Report 
 


                                           Page 38
 
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
